U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 21, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Simmons v. United States, No. 20-1704
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 4, 2021.
The government’s response is now due, after one extension, on August 9, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
September 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1704
SIMMONS, RONRICO JR.
USA

KRISTINA ALEKSEYEVA
HOGAN LOVELLS US LLP
390 MADISON AVENUE
NEW YORK, NY 10017
NEAL KUMAR KATYAL
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
NEAL.KATYAL@HOGANLOVELLS.COM

